<html>
<title> - HEARING TO CONSIDER THE NOMINATIONS OF JONATHAN STEVEN ADELSTEIN, KEVIN W. CONCONNON, AND EVAN J. SEGAL TO THE U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[Senate Hearing 111-247]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-247
 
                  HEARING TO CONSIDER THE NOMINATIONS
                     OF JONATHAN STEVEN ADELSTEIN,
                 KEVIN W. CONCONNON, AND EVAN J. SEGAL
                 TO THE U.S. DEPARTMENT OF AGRICULTURE

=======================================================================



                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION


                               __________

                              JULY 7, 2009

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                  U.S. GOVERNMENT PRINTING OFFICE
54-571                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado

                Mark Halverson, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                 Vernie Hubert, Minority Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Hearing to Consider the Nominations of Jonathan Steven Adelstein, 
  Kevin W. Conconnon, and Evan J. Segal to the U.S. Department of 
  Agriculture....................................................     1

                              ----------                              

                         Tuesday, July 7, 2009
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, U.S. Senator from the State of Iowa, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Casey, Hon. Robert P., Jr., U.S. Senator from the State of 
  Pennsylvania...................................................     8
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     2
Johnson, Hon. Tim, U.S. Senator from the State of South Dakota...     6
Pingree, Hon. Chellie, U.S. Representative from the State of 
  Maine..........................................................     4
Thune, Hon. John, U.S. Senator from the State of South Dakota....     7

                                Panel I

Adelstein, Jonathan Steven, Nominee to be Administrator, Rural 
  Utilities Service, U.S. Department of Agriculture..............    11
Concannon, Kevin W., Nominee to be Under Secretary of Agriculture 
  for Food, Nutrition and Consumer Services......................    13
Segal, Evan J., Nominee to be Chief Financial Officer, U.S. 
  Department of Agriculture......................................    15
                              ----------                              

                                APPENDIX

Prepared Statements:
    Grassley, Hon. Charles E.....................................    26
    Thune, Hon. John.............................................    27
    Adelstein, Jonathan Steven...................................    28
    Concannon, Kevin W...........................................    32
    Segal, Evan J................................................    34
Document(s) Submitted for the Record:
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Jonathan Steven Adelstein..................    38
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Kevin W. Concannon.........................    81
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Evan J. Segal..............................   100
    Organizational letter of endorsement for Jonathan Steven 
      Adelstein..................................................   129
Question and Answer:
Casey, Hon. Robert P., Jr.:
    Written questions to Jonathan Steven Adelstein...............   132
    Written questions to Kevin W. Concannon......................   140
    Written questions to Evan J. Segal...........................   143
Chambliss, Hon. Saxby:
    Written questions to Kevin W. Concannon......................   138
Klobuchar, Hon. Amy:
    Written questions to Jonathan Steven Adelstein...............   132
    Written questions to Kevin W. Concannon......................   140
    Written questions to Evan J. Segal...........................   143
Roberts, Hon. Pat:
    Written questions to Jonathan Steven Adelstein...............   134
Stabenow, Hon. Debbie:
    Written questions to Kevin W. Concannon......................   138
Thune, Hon. John:
    Written questions to Jonathan Steven Adelstein...............   135
Adelstein, Jonathan Steven:
    Written response to questions from Hon. Robert P., Casey, Jr.   132
    Written response to questions from Hon. Amy Klobuchar........   132
    Written response to questions from Hon. Pat Roberts..........   134
    Written response to questions from Hon. John Thune...........   135
Concannon, Kevin W.:
    Written response to questions from Hon. Robert P., Casey, Jr.   140
    Written response to questions from Hon. Amy Klobuchar........   140
    Written response to questions from Hon. Saxby Chambliss......   138
    Written response to questions from Hon. Debbie Stabenow......   138
Segal, Evan J.:
    Written response to questions from Hon. Robert P., Casey, Jr.   143
    Written response to questions from Hon. Amy Klobuchar........   143


                  HEARING TO CONSIDER THE NOMINATIONS


                     OF JONATHAN STEVEN ADELSTEIN,


                 KEVIN W. CONCONNON, AND EVAN J. SEGAL

                 TO THE U.S. DEPARTMENT OF AGRICULTURE

                              ----------                              


                         Tuesday, July 7, 2009

                                       U.S. Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 328A, Russell Senate Office Building, Hon. Tom Harkin, 
chairman of the Committee, presiding.
    Present: Senators Harkin, Stabenow, Casey, Klobuchar, 
Chambliss, and Thune.

 STATEMENT OF HON. TOM HARKIN, U.S. SENATOR FROM THE STATE OF 
   IOWA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Harkin. The Committee on Agriculture, Nutrition 
and Forestry will come to order. We are meeting today on a 
hearing on the nominations of three individuals to take 
important positions at the U.S. Department of Agriculture. We 
will hear testimony from these three nominees chosen by 
President Obama.
    First will be Jonathan S. Adelstein for administrator of 
the Rural Utility Service; Kevin W. Concannon for under 
secretary for Food, Nutrition and Consumer Services; and Evan 
J. Segal for chief financial officer. We welcome you to the 
Committee, congratulate you on your nominations and commend you 
for your willingness to serve.
    The administrator of the Rural Utility Services plays a 
vital role in helping farmers, ranchers and all rural citizens 
and communities across our nation enjoy electricity, 
telecommunications, including broadband, water, waste water 
systems. These services are vital elements of economic progress 
and quality of life for our rural communities.
    Mr. Adelstein is a former commissioner of the Federal 
Communications Commission and a former member of Senator 
Daschle's staff when Senator Daschle was both majority and 
minority leader, and also when he was a member of this 
Committee. In both positions, he has helped in greatly crafting 
and then carrying our rural broadband initiatives and 
investments.
    President Obama and Secretary Vilsack are to be commended 
for luring Kevin Concannon out of a short-lived retirement in 
Maine after serving as director of Human Services in Oregon, 
Maine and most recently, Iowa. I can personally attest to his 
ability and his dedication. Most notably during the devastating 
Iowa floods last summer, he ensured that thousands of Iowans 
received critical food assistance when they needed it.
    Mr. Concannon's peers honored him in 2007 with the life 
achievement award of the American Public Human Services 
Association. I know Mr. Concannon will serve in this capacity 
with the same skill and dedication that marked his tenure in my 
state.
    The chief financial officer of USDA is responsible for the 
financial management and oversight of an enterprise with 
100,000 employees, 14,000 offices and field locations, $128 
billion in assets and about $77 billion in annual spending. 
This is a very important responsibility, a position we entrust 
with ensuring that taxpayer dollars are spent carefully to 
achieve the intended purposes.
    Evan Segal has a strong and successful background in 
business. We look forward to his applying his talents and 
experience to the financial management of the Department of 
Agriculture.
    Again, welcome to the Committee and I will now turn to our 
ranking member, Senator Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Well thank you very much, Mr. Chairman, 
and I appreciate, obviously, you holding this very important 
hearing this day, but most importantly, I appreciate the three 
gentlemen that we are here to review today and to hopefully 
confirm in proper order. I welcome you, as well as your 
families, to the Committee.
    Mr. Adelstein, as we consider your nomination to serve as 
the administrator of Rural Utilities Service, I recognize that 
you are certainly no stranger to the Senate. Your 15 years as a 
staffer here on the Hill will undoubtedly serve you well upon 
your confirmation.
    As you mentioned in your written comments, you were heavily 
involved with expanding access to broadband service in rural 
areas during the 2002 Farm Bill. Of course this will be an 
issue that you will instantly inherit at RUS with 2.5 billion 
authorized in the stimulus bill for such purposes.
    Additionally, you are uniquely positioned with the 
experience you will bring to the table from your recently 
relinquished tenure as a commissioner of the FCC. The digital 
divide is a real concern to rural and more sparsely populated 
areas of our country. Those without access to internet service, 
particularly broadband and high speed service, are 
disadvantaged in many ways.
    You well understand this and you know that the Worldwide 
Web is at your fingertips and when it is, it opens countless 
avenues to E-Commerce, online job applications and routine 
daily chores like paying the bills and checking your bank 
statement. It even can enable better farming practices.
    In my home state, the Flint River Soil and Water 
Conservation District partnered with the University of Georgia 
to deploy a broadband pilot network for the main purpose of 
irrigation, water management and water conservation. The system 
communicates precise moisture levels and photos over wireless 
broadband to producers' laptops or home computers, allowing for 
optimum crop irrigation without ever overwatering.
    They estimate a 15 percent reduction in water use since 
employing that project. In the notice of funding availability 
that the administration released last week for the stimulus 
broadband initiative programs, they recognized that the 
recovery act was intended for rapid disbursement of funds, but 
also that the program must also be administered judicially to 
ensure responsible use of public funds.
    I agree that it is important not to sacrifice the quality 
of projects simply for the sake of getting them done quickly. 
Also, I would encourage you to extend broadband access to areas 
that are unserved before deploying to those who already have 
service options.
    Obviously telecommunications are not the only area that the 
RUS administrator oversees and I trust that you will equally 
value the importance of the water and waste disposal and rural 
electric programs that are crucial to rural communities. Having 
represented a rural electric co-op for 25 years before I got to 
Congress, I have a very special relationship with that group, 
as I know you do, and we want to make sure that we treat that 
organization fairly and in a way that allows for rural 
communities to continue to get not only the best form of 
electric service, but now with respect to telecommunications 
and broadband service.
    I am pleased to welcome Mr. Kevin Concannon as the 
president's nominee to under secretary for Food, Nutrition and 
Consumer Services. USDA's Food, Nutrition and Consumer Services 
oversees 15 domestic nutrition programs and the Center for 
Nutrition Policy and Promotion.
    FNCS touches the lives of one in five Americans every year 
and has an annual budget of over $60 billion, larger than many 
cabinet-level departments. I am pleased that Mr. Concannon 
brings to the table a distinguished career in administering 
nutrition, health and human services programs in various 
states.
    Your previous public service makes you ready on day one to 
take the helm of the FNCS mission area and oversee the 
implementation of nutrition child programs of the Farm Bill, as 
well as work with the Congress during reauthorization of the 
child nutrition programs.
    I am especially pleased that you have a strong record with 
the Supplemental Nutrition Assistance Program, or SNAP, 
formerly the Food Stamp Program. It is very important to me 
that you maintain and build upon the recent years of success 
and SNAP's payment, accuracy and participation rates.
    SNAP has some of the most robust quality measures of all 
Federal programs and public support for SNAP is strong due to 
overall high performance. Congress will look to your leadership 
to implement innovative approaches to improve payment accuracy 
and participation rates among eligible people.
    Your strong relationships with state administrators around 
the company will be a major benefit to succeeding in this 
endeavor. I look forward to working with you to ensure that 
FNCS programs are effective tools to not only combat hunger in 
the country, but also to improve the nutritional intake of all 
Americans.
    Mr. Chairman, I would note also that there seems to be a 
continuing ring of nominees that come up here that have some 
connection with Iowa.
    [Laughter.]
    Senator Chambliss. I don't know why that is, but it is a 
great state. Finally, welcome to Evan Segal, a new face to the 
Agriculture Committee. Senator Casey's introduction and his 
comments about you that I have already reviewed speak to your 
qualifications and I look forward to working with you as you 
assume the position of chief financial officer at the 
department.
    Your extensive management and financial experience will be 
an asset as you tackle the challenges ahead. The Department of 
Agriculture is one of the largest of the Federal agencies, with 
a Fiscal Year 2009 budget of $124 billion and approximately 7 
percent of the non-defense Federal workforce.
    You and I talked earlier about the fact that coming from 
the private sector there can be a huge change in the atmosphere 
when you deal with that kind of bureaucracy, but I know you are 
going to be up to the challenge.
    You will likely find that running the department's finances 
will not be like those you are accustomed to, but I do have 
confidence that your private sector experience will help you 
navigate any problem you encounter. I also want to applaud your 
commitment to public service. You are obviously a successful 
businessman, have a strong commitment to philanthropy and we 
would like to thank you for stepping out of those roles for the 
foreseeable future in service to the department, its employees, 
as well as the American people.
    Mr. Chairman, I am pleased with the quality of these 
nominees and upon completion of this hearing, I am hopeful that 
we might expeditiously move these nominations in order to get 
USDA fully staffed as soon as possible. Thank you.
    Chairman Harkin. Thank you very much, Senator Chambliss, 
and now for introductions of our nominees, I would first call 
on our guest from the House side, Congresswoman Pingree. For 
purposes of introduction, I am respectful of the fact that you 
came all the way over here and you have obligations on the 
House side also, to introduce Kevin Concannon.
    I might just say that yes, we are proud that he was in 
Iowa, but he was also in Maine too, and I think that is why 
Congresswoman Pingree is here. I just want to welcome the 
Congresswoman. I have known her for a long time, previously 
majority leader in the Maine Senate and was the CEO of Common 
Cause for a number of years and now in her first term here in 
the Congress, strong advocate, I might add, for Children's 
Nutrition Programs. So I can see the great connection between 
you and Mr. Concannon.
    So welcome to our Committee, Congresswoman, and for 
purposes of introduction, I will recognize you at this time.

STATEMENT OF HON. CHELLIE PINGREE, U.S. REPRESENTATIVE FROM THE 
                         STATE OF MAINE

    Ms. Pingree. Thank you very much, Senator Harkin and 
Ranking Member Chambliss. It is an honor to be here with your 
Committee and to all the other members of the Committee, thank 
you very much for allowing me to spend a couple of minutes 
speaking about our great Maine native, Kevin Concannon.
    I will say first, you are right, I am a newly elected 
member of the House, so it is quite a treat to come over here 
and visit with the Senate once in awhile, and I am also pleased 
to be on the Agriculture Committee.
    I may have mentioned to the chair before, but my family 
were all Scandinavian immigrants who moved to Iowa when they 
came here to this country and farmed there for many years in 
Story City, so we got our start there and I also have a 
background in agriculture, so while I do not serve on this 
committee in the House, I am pleased to be with you at least 
for a minute, and also very pleased to also just be here while 
you are confirming or looking at the nomination for Mr. 
Adelstein.
    I got to know him a little bit when I worked at Common 
Cause and he was on the FCC and you have a wonderful lineup of 
nominees here today and I know he would also do great work for 
our country.
    But I am really here today just to say a few words about 
Kevin Concannon and I truly am honored to introduce him, to be 
in the presence of his family and to talk a little bit about 
his great work in Maine, as well as Iowa and the State of 
Oregon.
    I first got to know him when I served as the Maine Senate 
Majority leader, as you mentioned, and we did a whole variety 
of work on child nutrition, on seniors, on TANF, on healthcare, 
and most notably for me, on the area of prescription drugs and 
availability of prescription drugs. Kevin was serving at the 
time as the commissioner of Health and Human Services for an 
independent Governor in Maine and he had an exemplary record of 
outreach, but also working well with both sides of the aisle, 
which was very helpful to me in my particular position.
    He and I worked together on a bill to make sure we could 
ensure more access for prescription drugs for our senior 
citizens and I can say without a doubt that bill would never 
have passed without the support of Mr. Concannon, his credible 
work, his ability to work with both the Governor on both sides 
of the aisle and all of the legal issues surrounding it.
    It actually got a unanimous vote in the Senate in the State 
of Maine and nearly unanimous in the House. Of course, it is a 
little more rowdy body, as you know, but we passed and to his 
credit, in 2003, when it was heard here at the United States 
Supreme Court, because of his great understanding of the legal 
work as well, it was seen to be approved by the Supreme Court. 
So he has just an incredible record.
    He is very well regarded in our state. He is seen as a 
compassionate, enthusiastic and energetic public leader. He 
manages very well at the interface between state and Federal 
laws, which proved to be very helpful, certainly when I was 
working with him, and I know it would serve him well in this 
job.
    He did a lot of interesting work, not just in the area of 
healthcare and child nutrition, but also with people with 
disabilities, the frail elderly, using a lot of creative 
community options and alternatives to make sure everyone had 
access to care.
    He oversaw Maine's food stamp and WIC program, did 
tremendous work around outreach and eligibility to simplify 
that in making sure that all Maine residents who were eligible 
had access to the programs that they needed. I just think that 
his diversity of experience will serve him, this Committee, the 
Department of Agriculture extremely well.
    I cannot think of a better nominee. I cannot think of 
anyone I have enjoyed working with more when he was in our 
state and someone who comes with a greater reputation from the 
other states that he has worked in. Should you choose to 
confirm his nomination as under secretary for Food, Nutrition 
and Consumer Services, I think that he will do an extraordinary 
job in this time of tremendous need and I think he will put his 
creativity and experience to work for this country and we will 
all be well served.
    So thank you for giving me the opportunity to speak about 
Mr. Concannon and I hope that you choose to confirm him and I 
think he will do very well. So thank you very much.
    Chairman Harkin. Thank you, Congresswoman, very much. You 
can stay if you like, but if your duties on the House side 
require you to leave, we certainly understand that.
    Ms. Pingree. I will stay a couple minutes, thank you.
    Chairman Harkin. I would now like to turn to the two South 
Dakota senators, Senator Thune and Senator Johnson. I guess, 
how would I do this?
    Senator Johnson. I am senior.
    Chairman Harkin. You are senior, OK.
    [Laughter.]
    Chairman Harkin. I will turn to senior Senator Johnson 
first and then Senator Thune.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM THE STATE OF 
                          SOUTH DAKOTA

    Senator Johnson. Chairman Harkin, Senator Chambliss and 
members of the Committee, it has been a long time since I last 
served on this Committee. It is good to see the Georgia 
peanuts.
    Chairman Harkin. Right.
    Senator Johnson. I am pleased to introduce a fellow South 
Dakotan, Mr. Jonathan Adelstein, as the Senate Ag Committee 
considers his nomination for U.S. Department of Ag, 
administrator for Rural Utilities. I can think of no one better 
qualified for this important position than Jonathan. He brings 
to this position an impressive background as an advocate for 
rural America, as well as a dedication to working in a 
thoughtful, bipartisan way.
    His role as the commissioner of the Federal Communications 
Commission and previous experience as a policy advisor to 
former Senate Majority Leader Tom Daschle demonstrates his 
talent and commitment to public service. I would especially 
like to mention that as a staff member in Senator Daschle's 
office, Jonathan was heavily involved in enacting legislation 
in the 2002 Farm Bill which influenced the development of the 
Rural Utilities Service Telecommunications Program to include a 
broadband agenda.
    It is only fitting that Jonathan now be entrusted with 
administering the very same program he helped craft. Our rural 
communities maintain diverse interests and needs and I am 
confident Jonathan will expertly navigate these diverse 
stakeholder concerns to ensure a vibrant future for our rural 
communities.
    Our rural America has an excellent voice in Jonathan and I 
urge the members of this Committee and my Senate colleagues to 
confirm Jonathan Adelstein's nomination. Thank you.
    Chairman Harkin. Thank you very much, Senator Johnson. 
Welcome back to your old stomping grounds here. It is nice to 
see you.
    We now turn to our distinguished member of this Committee, 
Senator Thune.

 STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE STATE OF 
                          SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and Senator Johnson 
stated it well, but I also want to join him and congratulate 
Jonathan and welcome him to the Committee and look forward to 
him being confirmed to this important position.
    I want to thank our other noms for their willingness to 
serve as well. These are important jobs, but there are a few 
people in public service today, Mr. Chairman, who have a better 
understanding of rural issues, particularly telecommunications 
issues, than does Jonathan Adelstein. Jonathan, as Senator 
Johnson noted, has served on the Federal Communications 
Commission for the past 7 years.
    He was confirmed twice by the U.S. Senate, both in 2002 and 
2004, to that position.
    He has been an outspoken advocate on behalf of consumers 
and carriers in rural America. Whether it is spectrum 
allocation or universal service or broadband access, rural 
consumers could always count on Jonathan's leadership within 
the Federal Communications Commission and I think it is very 
fitting that he be nominated to serve as director of the Rural 
Utilities Service, particularly as the RUS begins to deploy $2 
billion in rural broadband assistance. His experience with 
rural telecommunications issues is going to come in especially 
handy and I think prove to be an invaluable skill set as he 
comes into the job.
    High speed broadband is key to economic development in 
rural areas. It is absolutely essential that as we distribute 
these funds, that it be done in the most efficient and 
effective way possible, particularly in unserved and 
underserved areas, and I am confident that Jonathan is the 
right person for that job.
    Before serving on the FCC, as Senator Johnson noted, 
Jonathan had a very distinguished career here on Capitol Hill, 
working legislative issues for a 15-year period, dealing with 
telecom, housing, transportation, financial services and prior 
to that, was a teaching fellow at Harvard University's Kennedy 
School of Government and also at Stanford as a teaching 
assistant in the Department of History.
    He has MA and BA degrees from Stanford University, so 
terrific academic background. I believe his diverse experience 
makes him uniquely qualified for this position and particularly 
when you look at the important challenges that we have in front 
of us when it comes to rural infrastructure programs in this 
country, whether that is water, electricity, 
telecommunications, you name it.
    So Mr. Chairman, this Committee has a long history of 
bipartisanship, as does the Adelstein family. Jonathan is 
originally from Rapid City, South Dakota, where his father, who 
is with us today, Stan, serves as a state legislator, as well 
as a successful businessman and philanthropist. The Adelstein 
family has a proud tradition of public service and I want to 
welcome Jonathan, as well as his family members, his wife, 
Karen, and his children, Adam and Lexi, to the Committee today 
as well. They live here in the Washington, D.C. area.
    So Mr. Chairman and Senator Chambliss, I congratulate 
Jonathan on this nomination. As I said before, I cannot think 
of anyone more qualified to perform the important duties that 
are associated with this position and I hope that we will 
quickly confirm him into the job so he can begin going to work.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much, Senator Thune. And 
now for introduction of Evan Segal, I turn to another 
distinguished member of this Committee, Senator Casey, from 
Pennsylvania.

 STATEMENT OF HON. ROBERT P. CASEY, JR., U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Casey. Mr. Chairman, thank you very much and I 
appreciate the prompt action on scheduling this hearing. I know 
how busy you are as a member of several committees, including 
the Health Education Labor Pensions Committee, as we deal with 
healthcare reform, so we are especially grateful for your work 
in scheduling this hearing and I want to thank our ranking 
member, Senator Chambliss, as well.
    I want to commend the two nominees that are here with us 
that I will not be speaking about, but I want to commend them, 
Mr. Adelstein, Mr. Concannon. Mr. Concannon was nice enough in 
one of our--during the midst of a hearing to meet with us in a 
hallway, which was particularly--we are particularly grateful 
for that in the midst of our schedule.
    But I am here to speak about someone who is my friend and I 
should be very candid about that, he is a friend of mine and so 
some of what I say might reflect that friendship. But I think 
it will be an objective assessment of his record, his character 
and his ability to lead as the chief financial officer for the 
United States Department of Agriculture.
    Evan Segal's reputation as an outstanding business owner 
and his commitment to public service makes him an excellent 
choice for this position, the chief financial officer of such a 
big Federal Government agency and such an important agency, to 
places like the Commonwealth of Pennsylvania, but really across 
our country.
    Evan is a former owner and president of Dormont 
Manufacturing Company, the nation's leading manufacturer of 
flexible stainless steel gas appliance connectors. During his 
time as the CEO of that company, and just imagine this, those 
of us who think we can run things, he oversaw the dramatic 
growth of the country--the company I should say, from sales of 
5 million to sales of 60 million, creating 250 jobs in the 
process.
    He is currently an executive in residence at the Carnegie 
Mellon University Tepper School of Business and he serves as a 
mentor for startup companies. In addition to his business 
qualifications, Evan has a long history of service to his 
community, for groups like the Community Day School, the Evan 
and Tracy Segal Family Foundation, the United Jewish Federation 
of Pittsburgh's Management Committee, and the Carnegie Mellon 
University Tepper School of Business that I mentioned before. I 
have no doubt he can do this job and I have no doubt he can do 
this job well.
    But I have to say in a personal way that our commonwealth 
is very proud of you, Evan, today. It is rare that a state can 
send someone to Washington at such a high level in such a 
significant agency at a very important time in our nation's 
history, when we are dealing with a world and national economic 
crisis, we are dealing with the ravages brought about by that 
and hunger and people not having enough to eat and all of the 
ramifications for the Department of Agriculture, as well as a 
tough time for our farmers and their families.
    We are grateful that you would be willing to serve, so our 
commonwealth is proud of you and you should know that as you 
start. I know that Tracy is proud of you. She was before today 
as well, and that Tess and Ariel are proud as well. But I know 
Evan Segal to be tough, smart and honest and we can ask for no 
more from our public officials, whether they be elected or 
appointed.
    Finally, let me say that one of the things that has guided 
a lot of people who serve in public office is a set of 
principles. One of them--one of those principles is etched into 
the building in our state capital, the finance building where I 
used to work. It says very simply, all public service is a 
trust given in faith and accepted in honor.
    I have no doubt that Evan Segal, as an important member of 
the team at the Department of Agriculture, lead by Secretary 
Vilsack, who has roots in Pennsylvania, but Iowa gets to claim 
him as well, but I know that as part of that team that Evan 
will live by that, that motto that public service is a trust, 
that it is given to those of us who have a chance to serve with 
a sense of expectation that we are going to discharge the 
responsibilities we have with honor.
    Evan, I know you are prepared for this job. We look forward 
to your speedy confirmation. I cannot stay for the hearing 
today because like Senator Harkin, we have to eventually get 
back to our Health Committee meeting, markup actually. But I am 
grateful that you are willing to serve. We are proud of you and 
God speed.
    Chairman Harkin. Thank you all and now that you have all 
been formally and duly introduced, I have two housekeeping 
things. First, I must administer an oath and I would ask you, 
all three, to rise and raise your right hand.
    Do you swear or affirm that the testimony you are about to 
provide is the truth, the whole truth and nothing but the 
truth, so help you God?
    Mr. Adelstein. I do.
    Mr. Concannon. I do.
    Mr. Segal. I do.
    Chairman Harkin. Thank you very much and you may be seated. 
Do each of you agree that if confirmed, you will appear--this 
is an important question--do you agree that if confirmed, you 
will appear before any duly constituted committee of Congress 
if asked to appear? Mr. Adelstein?
    Mr. Adelstein. I do.
    Chairman Harkin. Mr. Concannon?
    Mr. Concannon. I do.
    Chairman Harkin. Mr. Segal?
    Mr. Segal. I do.
    Chairman Harkin. Thank you all very much. And now, we will 
turn to opening statements in alphabetical order, Mr. Adelstein 
and then Mr. Concannon and Mr. Segal. If you could keep your 
statements within five to 7 minutes or so.
    We also like to ask our nominees to introduce their family 
members. I know Mr. Thune mentioned that you had some family 
members here and others, so Mr. Adelstein, I will recognize 
you, your statement. All of your statements will be made a part 
of the record in their entirety. I will just ask you to 
summarize them, but before you do that, Mr. Adelstein, how 
about introducing your family who is with you?
    Mr. Adelstein. Well thank you, Mr. Chairman. I would love 
to. My wife, Karen is here, who has put up with the life of a 
public servant for a long time and supported me through 
everything. My son, Adam, is here, who is skipping camp for 
this. His sister, Lexi, did not skip camp. She is in camp, but 
she would love to be here as well.
    My father is here from South Dakota. Senator Chambliss 
mentioned there is an Iowa connection everywhere. He was born 
in Sioux City, so I guess that is mine.
    Chairman Harkin. Well he did not move too far.
    Mr. Adelstein. All the way to Rapid. But he is also a state 
senator, as Senator Thune mentioned, and chairman of the Health 
Committee in the South Dakota State Senate, so very interested 
in what you are up to over in the Health Committee.
    Chairman Harkin. When we are through here, do you want to 
come next door? We are having our Health Committee markup 
there, as Senator Casey said.
    Mr. Adelstein. My niece Shirley and her fiance, Josh, are 
here as well. Love to have them. My brother, Col. Dan 
Adelstein, is here, who also is a public servant, serving in 
the House of Representatives as a staff member for Geoff Davis 
of Kentucky. His wife, Judy, is also a public servant--we have 
a lot of this in the family--who is a person that works at the 
FDA. So we are--my brother-in-law is here, Ike Brenner, and his 
wife, Jennifer Brenner. We thank you for coming and that is a 
good crew of family from----
    Chairman Harkin. Very good. Thank you very much for being 
here.
    [Applause.]
    Chairman Harkin. Great family. Please proceed, Mr. 
Adelstein.

     STATEMENT OF JONATHAN STEVEN ADELSTEIN, NOMINEE TO BE 
  ADMINISTRATOR, RURAL UTILITIES SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Adelstein. Mr. Chairman, thank you very much, and 
Senator Chambliss, members of the Committee, thank you so much 
for holding this hearing. It is a great opportunity to appear 
before you as the nominee to be administrator of the Rural 
Utilities Service.
    I am deeply grateful to President Obama for nominating me, 
Secretary Vilsack for supporting that nomination. Mr. Chairman, 
it is largely due to your leadership and that of many members 
of this Committee, that the RUS now has a unique opportunity to 
help restore economic prosperity for the president's stimulus 
package.
    To meet the high expectations that you have rightfully set 
for the RUS, I will draw upon what I learned as a four 
generation South Dakotan. My great grandmother homesteaded in 
the Badlands and thrived there along with so many of her 
neighbors that were scattered around because they pulled for 
each other.
    Her son, my grandfather, began a long family history of 
improving rural infrastructure. He started a construction 
company back in 1925 that my father, who I just introduced, 
took over and made that thrive before moving on into retirement 
to his own career in public service. His idea of retirement is 
being here in the winter time.
    The motto of our family company remains with me even now, 
builders of better bridges and highways. Mr. Chairman, if 
confirmed, I will carry that motto with me to the RUS. Now of 
course, in the 21st Century economy, it means more than just 
roads. Through technology, people can connect in ways that my 
great grandmother could not have possibly imagined.
    Small communities once faced economic extinction without 
access to the highway system that my family helped to build out 
there. Today they depend upon access to the main arteries of 
the communication system, the power of our electrical 
infrastructure and plentiful sources of clean water.
    RUS has a critical role to bring these benefits to rural 
Americans. RUS strives to support utilities that are as good as 
any in the nation. As commissioner of the FCC over the last 6 
years, as Senator Thune and Senator Johnson mentioned, I have 
worked on a bipartisan basis to help meet the communications 
issues facing rural America. It is clear to me from what I have 
learned that we need to upgrade our infrastructure in every 
corner of this country.
    We need to make new technologies more widely available and 
affordable to everyone no matter where they live, what 
challenges they face, whether they have disabilities. We are 
going to make sure that everybody has access to the miracle of 
broadband. I have aggressively promoted broadband deployment 
and adoption on the FCC, but even though we made real strides, 
I have been frustrated that we have not done more. We are not 
keeping pace with our global competitors. We need to restore 
our place as the undisputed world leader of communications 
technology and rural America is the most important place to 
start.
    The role of the RUS is to ensure that all the rural pipes, 
electric, telecommunications, and water are affordable to all 
and second to none. This is not only critical for the future of 
rural America, but to our country's overall economic growth.
    In the 15 years I served on the staff of Senate Majority 
Leader Tom Daschle, I saw firsthand the commitment that 
Congress has made to rural Americans. If confirmed, I will use 
that experience, and of course, your guidance, to maximize the 
effectiveness of RUS as Congress envisioned.
    In fact, as Senator Johnson pointed out, one of my proudest 
achievements in the Senate was advising Senator Daschle during 
the 2002 Farm Bill Conference. Mr. Chairman, you and Senator 
Daschle really took the lead on creating provisions to expand 
the scope of RUS to include support for broadband.
    Rich Bender and Shawnee Wiggins and I kind of camped out at 
the conference here to make sure that that program worked. 
Along with you and your staff, Mr. Chairman, we helped move the 
RUS into the 21st Century, beyond just voiceovers to the 
broadband world. The administrator at the time was Chris 
McLean, who is here now, and he gave us some good guidance 
along the way as well.
    It would be a special honor if confirmed to implement the 
program to make sure that it works well. We need to help young 
people who want to stay in the small towns, farms and 
communities where they grow up to find economic opportunities 
if they want to stay there. Modern utilities are essential to 
address their needs on so many levels, just to name a few, in 
terms of health, education, public safety, employment and the 
general quality of life.
    These systems are the backbone of our economic development 
efforts. If confirmed, a special party that I would be eager to 
address is American's need for renewable energy. There is also 
a pressing need for safer drinking water, better waste water 
systems for many of our rural communities, which are essential 
to the health of our citizens.
    All of this can be done in a way that promotes diversity, 
respects civil rights and all of our program and employment 
practices. Mr. Chairman, if confirmed, I will work to continue 
the proud family tradition we have of building better bridges 
and highways. Thank you for the opportunity to testify.
    [The prepared statement of Mr. Adelstein can be found on 
page 28 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Adelstein. And 
now we will turn to Mr. Concannon, and Mr. Concannon, if you 
would introduce your family members who are here with you.
    Mr. Concannon. Thank you very much, Mr. Chairman. I would 
like to introduce my wife, Eileen, is over here on the right-
hand side, and my second oldest son, Michael, in the middle 
here with the yellow tie, and then our son Steven, and then our 
youngest son, John, and our granddaughter Catherine Concannon.
    Two of these folks are from Maine, from southern Maine, and 
my son Steven lives just outside of Boston. So thank you very 
much.
    Chairman Harkin. Thank you for being here.
    [Applause.]
    Chairman Harkin. Especially Catherine.

STATEMENT OF KEVIN W. CONCANNON, NOMINEE TO BE UNDER SECRETARY 
    OF AGRICULTURE FOR FOOD, NUTRITION AND CONSUMER SERVICES

    Mr. Concannon. Chairman Harkin, Ranking Member Chambliss, 
members of the Committee on Agriculture, Nutrition, and 
Forestry, I am Kevin Concannon, appear before you as the 
nominee for under secretary of Food, Nutrition and Consumer 
Services.
    I want to thank Congresswoman Chellie Pingree of Maine's 
1st Congressional District for that very generous and kind 
introduction. She and I work very well together and I look 
forward to working with her and members of this Committee if 
confirmed.
    I am most grateful to President Obama and to Secretary 
Vilsack for placing their confidence in me, especially at this 
time in this challenging economy and when our country is so 
mindful of the millions of our fellow Americans facing the 
struggles of food insecurity, poor nutrition, obesity and the 
resulting health problems and costs associated with these 
circumstances.
    I am passionately committed to the obligation we share to 
those less fortunate among us and should the Senate vote to 
confirm my nomination, I will work diligently to provide the 
leadership and sound stewardship over these portfolios of food, 
nutrition programs and consumer services.
    In my roles as a state health and human services director 
in Iowa, Maine and Oregon, among parallel program 
responsibilities, I have overseen and championed USDA programs, 
including the Supplemental Nutrition Assistance Program, 
formerly the Food Stamp Program, WIC, Women, Infants and 
Children, the Emergency Food Assistance Program, and have 
advocated for the School Lunch, School Breakfast and Summer 
Feeding Programs.
    Last year in Iowa, with widespread devastation caused by 
tornadoes and unprecedented flooding, emergency disaster food 
assistance and SNAP benefits were among the first and vital 
elements in assisting thousands of Iowans adversely affected by 
these natural disasters.
    I had similar experience with these programs a decade ago 
in Maine during a major winter ice storm and its extended 
aftermath, so I know firsthand these are essential safety net 
programs. Providing ready access to nutritious, affordable food 
through these USDA programs is an expressed goal of President 
Obama, Secretary Vilsack, many members of this Committee and 
throughout Congress.
    Iowa has been a leader in promoting local farmers markets 
as a venue for affordable produce through SNAP and wireless 
technology. If confirmed, I will continue to promote through 
USDA programs such as SNAP and WIC, expanded access to farmers 
markets, both for the benefit of our program enrollees and 
growers, but I will also continue to advance the understanding 
and perspective I espouse as a state official. These programs 
are purposely and strategically in the Department of 
Agriculture because at their core, they reflect the output of 
American farming.
    Programs such as SNAP benefit at least three major groups 
of Americans, the 34 million current recipients of the program, 
nearly half of whom are American children, food suppliers, food 
stores, retail outlets, and the farmers who ultimately grow the 
food.
    I feel especially fortunate and honored to be here today as 
a first generation American. My parents, now deceased, were 
Irish immigrants, naturalized citizens who conveyed to their 
children among other human values, a sense of our good fortune 
as Americans, our obligation to others, and our respect for 
government.
    While there is no shortage of challenges and obligations 
within the FNCS at USDA, should the Senate choose to confirm 
me, I will also work to find common cause with other sectors 
within USDA, with sister Federal agencies such as the Centers 
for Medicare and Medicaid, the Centers for Disease Control and 
Prevention, the Administration for Children and Families in the 
Health and Human Services Department, and the U.S. Department 
of Education, who share responsibilities in areas of focus that 
impact American consumers and particularly low-income children 
and adults.
    From my state level experience, I know that some of our 
most effective initiatives are those that help people, were 
those that cut across organizational boundaries and 
limitations. Importantly, I have enjoyed the many opportunities 
and outcomes of working with Governors and state and Federal 
elected representatives. If confirmed, I pledge to work with 
members and staff of this Committee and other parts of Congress 
and meeting our obligation to the American people through the 
programs and services of the Food, Nutrition and Consumer 
Services.
    Finally, I wish to express my love and appreciation to my 
wife, children, their families and my brothers and sisters for 
their support and encouragement over the years, my years in 
public service. They have made sacrifices and their particular 
enthusiasm for this opportunity for me to serve in a national 
leadership role is really one of the energizing factors for me.
    Finally, I thank you for your consideration and look 
forward to responding to your questions.
    [The prepared statement of Mr. Concannon can be found on 
page 32 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Concannon. And 
now, Mr. Segal, we will turn to you and I see you have family 
members here too.
    Mr. Segal. I do.
    Chairman Harkin. Please introduce them to us.
    Mr. Segal. Absolutely. Well, we are represented from both 
sides of the state. I have my wife, Tracy, and our daughters, 
Tess and Ariel, and my parents, Jerry and Monica Segal, all 
from Pittsburgh, and then from--in addition, my brother, Eric, 
and my niece and nephew, Jory and Julia Segal.
    Then from Philadelphia, I have my sister-in-law and 
brother-and-law, Deborah and Peter Houston, their son, Geoffrey 
Mills, and their grandson, Sean Mills, and in addition, my 
cousin, my nephew, Brian and Graham, also from Philadelphia. So 
I am glad they are all here and we are excited.
    Chairman Harkin. Great family.
    Mr. Segal. Thank you.
    [Applause.]

   STATEMENT OF EVAN J. SEGAL, NOMINEE TO BE CHIEF FINANCIAL 
            OFFICER, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Segal. Mr. Chairman, Senator Chambliss, and the 
distinguished members of the Committee, I am honored to be here 
today as the president's nominee for the chief financial 
officer of the United States Department of Agriculture.
    I also want to thank Senator Casey, not only for his kind 
words, but for his leadership, his intelligence and his 
integrity in representing the State of Pennsylvania. My journey 
leading me to today's meeting really began 30 years ago, when I 
worked several summers in my father's factory sweeping the 
floors, picking up shop towels, assembling products and running 
production machines.
    It was a great opportunity to learn the business from the 
bottom up and develop relationships with those people whose 
hard work and sweat are the backbone of our country. I had the 
fortunate opportunity to attend Carnegie Mellon University in 
Pittsburgh, where I earned both a BS and an MBA from the Tepper 
School of Business and I had the opportunity to learn many 
skills, tools and concepts that have prepared me for my 
business career.
    One of the strongest lessons was the opportunity to work in 
teams with highly talented people in a high pressure 
environment. Upon graduation, I joined Scott Paper Company as a 
financial and strategic planning analyst. At Scott, I was able 
to actively participate in the management of a large 
organization with many complex operations. I learned the 
importance of disciplined systems, structures, processes, 
lessons that would serve me well throughout my career.
    After several years at Scott, I decided to return to 
Pittsburgh to join my father at Dormont Manufacturing Company. 
Dormont manufactured flexible, stainless steel gas appliance 
connectors, the metal hose that is used to hook up gas 
appliances to the gas supply line. Over the next 20 years, we 
significantly expanded the business and created many new jobs.
    We were highly focused on integrating world class 
management processes into our business and scaling them to help 
achieve our goals. Along with an incredible group of talented 
people, we began to utilize quality management tools, including 
lean manufacturing and Six Sigma. We focused on developing and 
training our people to manufacture and deliver the highest 
quality gas connectors in the world at a competitive price and 
with an unmatched level of customer service.
    The ability to effectively execute and implement our goals 
enabled us to create a highly successful business. In addition, 
I had the opportunity to work with a wide range of customers, 
suppliers and end users from all around the United States and 
around the world. For all of our customers, regardless of size, 
which range from some of the largest corporations to small 
family businesses, we were committed to their success.
    Over the past 3 years, I have been fortunate enough to be 
able to give back through my active involvement in several 
philanthropic organizations. These different experiences have 
helped make--have given me many invaluable lessons that upon 
confirmation I think will help me succeed in my role as the 
chief financial officer at the Department of Agriculture.
    First there was the phrase that my father taught me. People 
do not care how much you know until they know how much you 
care. In this case, caring means a deep respect for the people 
that you work with, the conscious need to listen to their 
ideas, thoughts and opinions and the desire to help them 
succeed, whether it is in the workplace, the global arena or on 
the athletic field, success starts with people who are willing 
to work together toward a common goal.
    Second, successful organizations highly focused on the 
implementation of its strategies and goals, recognizing that it 
needs to work smart and to utilize the skills, tools and 
knowledge to meet and exceed those objectives. This starts with 
active listening, learning from past successes and failures and 
building on the cumulative wisdom of the organization.
    The next step includes the development and alignment of the 
organization's mission with its strategies, goals and 
objectives. Next is perhaps the most challenging part, which is 
successful execution. This includes the development and regular 
monitoring of well defined goals and metrics. Finally, it 
includes working collaboratively with all stakeholders to 
implement the changes to help achieve the agreed upon goals.
    Third, through our commitment at Dormont, world class 
quality and zero defects, I learned the importance of utilizing 
the skills and talents of our people, combined with well-
defined processes, to increase quality, improve efficiency, 
eliminate waste and lower costs.
    It is possible to improve customer service and lower costs 
through collaborative teamwork and effective implementation of 
proven systems and processes. I understand that the Department 
of Agriculture is a highly complex organization that supports a 
wide range of missions in various areas of responsibility. It 
is also a department that has many highly talented, experienced 
professionals who work every day to fulfill the mission of the 
Department of Agriculture.
    The Office of the Chief Financial Officer encompasses a 
wide range of responsibilities, including financial systems, 
financial policy and planning, financial operations and the 
National Finance Center. These activities include active 
involvement in strategic planning, ongoing accounting 
operations, audit and internal control functions, financial 
reporting, and cost-effective systems and services to other 
Federal organizations. Fortunately, the Office of the Chief 
Financial Officer already has a tremendous staff that does an 
excellent job everyday in fulfilling these important 
responsibilities.
    I look forward to this wonderful opportunity to serve our 
country in working with this talented team of professionals. I 
understand the critical importance of carefully managing the 
financial systems of the department and upon confirmation, I 
will work effectively, collaboratively and with great diligence 
to support the goals of the Obama Administration for the 
Department of Agriculture.
    In addition, I want to state my commitment to civil rights 
at the department. I will work hard to ensure the department's 
employment practices will not tolerate any form of 
discrimination. I will build upon my experience and knowledge 
and lessons learned as a successful business owner, corporate 
executive, entrepreneur and educator to provide the leadership 
and financial management skills to support the department and 
its stakeholders.
    Finally, I want to thank my wife and my family for 
providing unconditional love and understanding in all my 
endeavors. Their support has enabled me to realize the many 
successes in my career and allowed me to be here today. I also 
want to thank the members of the Committee for this opportunity 
to appear before you today. Thank you.
    [The prepared statement of Mr. Segal can be found on page 
34 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Segal. Thank you 
all for very great statements, and again, I congratulate each 
of you on your nominations and we will do what we can to 
expedite this.
    I just have about one question for each of you. Mr. Segal, 
since 2000, the Risk Management Agency has successfully 
utilized data mining of information on the operation of the 
Federal Crop Insurance Program to detect potential fraud and 
abuse and achieve considerable program savings. I believe that 
this technique has also been used with some success in recent 
years in detecting fraud in the SNAP, in the Food Stamp 
Program.
    Will you commit to looking into how this tool might be used 
for other USDA programs which make significant payouts to large 
numbers of individuals? And in particular, I would ask that you 
call in a former colleague of ours on the House side--well I 
served with him in the House before I came to the Senate; well 
you did too--Charlie Stenholm, a former ranking member of the 
House Agriculture Committee, who has briefed my staff on this 
and brought to our attention the savings that were obtained by 
this data mining of information?
    I don't know if you have looked at that or not. If you 
haven't, I would just ask that you please take a look at that.
    Mr. Segal. Absolutely, Senator, and upon confirmation, I 
would be glad to look at not only that, but all tools that 
really look at how we can run the department more efficiently 
and more effectively.
    Chairman Harkin. As I mentioned in my statement, how many 
offices you have and how many people, you are spread all over 
the country, I mean, the world. For a chief financial officer 
to have that many different locations and different people in 
every aspect of agriculture, that is a big job, so in any ways 
that we can find and how we can achieve savings and streamline 
things and bring things up to modern standards.
    Of course, one of the big problems you have, you probably 
already know this already, is your outdated computer system. 
Senator Chambliss I know has wrestled with this. I have, a lot 
of us have wrestled with how we are going to leapfrog that and 
get that up to present standards.
    So I would be looking forward to any suggestions that you 
have to us on how we do that. If you have any statements on 
that, I would be glad to listen to it right now, just on how we 
get that outdated computer system up to present standards.
    Mr. Segal. I think it really goes back to the basic 
problem-solving methodology, whether it is the computer systems 
or whatever. Obviously, coming from Carnegie Mellon, having 
some good background with computer systems--but I think it is 
fundamentally--and I think you and the Committee members have 
dealt with this for a number of years, it is initially--and 
this comes from some of the Six Sigma methodology, but really 
defining the problem and then understanding what the goals or 
objective are in terms of what we are trying to do, what are 
the specific opportunities that we can to move ahead, and then 
put in place those fixes both short term and long term.
    I think that once you have a problem-solving methodology 
that is effective, and that is really essentially what a Six 
Sigma methodology is, it is a problem-solving methodology that 
can be applied to whether it is the IT infrastructure or the 
crop insurance fraud or data mining, whatever it might be, it 
is using a methodology that is proven, that is successful in 
making it work.
    I really look forward upon confirmation working with you 
and the members of the Committee and would be glad to meet with 
you and your staff to address any specific concerns that you or 
Senator Chambliss or other members of the Committee might have.
    Chairman Harkin. OK, thank you very much. I look forward to 
that. Mr. Concannon, Food, Nutrition and Consumer Services, I 
think this Committee and our counterpart in the House side, we 
have been very good at promoting the production of food in this 
country, no doubt about that. Look at the success we have had 
since World War II.
    But now we have another problem and that is nutrition. We 
know the growing rates of obesity in this country. We know the 
problems of hypertension and diabetes, all the things that are 
affected by early nutrition programs. And so this year, as you 
know, we are supposed to reauthorize the Child Nutrition Bill, 
School Lunch and School Breakfast Programs. I hope we can get 
that done before the end of the year.
    I am kind of just curious about your previous experiences 
in those areas touching on child nutrition and any thoughts you 
might have on where we should be headed. Now as you know, one 
of the things that we are contemplating, it is going to be, at 
least in our chairman's mark on the bill and I think on the 
House side too, and that is, giving the secretary of 
Agriculture the authority to regulate all of the food in 
school.
    Right now the secretary just has the authority to regulate 
the food in the lunchroom, so you go outside the lunchroom down 
the hall and there are the vending machines and all the junk 
food. So we are contemplating--I shouldn't use the word--we are 
going to start the process of having the secretary have 
jurisdiction over all the food in the school so that the 
nutritious foods that we put in the School Lunch and School 
Breakfast Programs are not undermined by the vending machines 
and a la carte lines and that type of thing in our schools.
    I just invite you, any thoughts you might have on that, 
things that you might look forward to doing in the nutrition 
area. You mentioned that farmers--farmers markets. You did a 
great job in Iowa on that and I commend you for that. And where 
we did the wireless technology where people could go with their 
coupons--not coupons, but----
    Mr. Concannon. EBT cards.
    Chairman Harkin. EBT cards. EBT cards. And have it 
immediately swiped in the farmers markets, I think that worked.
    Mr. Concannon. Yes.
    Chairman Harkin. I think it worked well. Any thoughts about 
expanding that?
    Mr. Concannon. Yes indeed, Senator. I am very interested in 
seeing what we can do, both--I know the secretary has mentioned 
that, and the president, in his concern about the very issues 
you cite, obesity and promoting sounder nutrition for 
Americans. Clearly the fact that the USDA, the programs, even 
in the Food Nutrition Service, amount to nearly $80 billion 
annually in expenditures. The good news is the impact that it 
is having in terms of providing access to food for people.
    But we recognize, just as you have cited, the growing 
concern in the country, the phenomenon of obesity- and 
diabetes-related health issues. I am very mindful before I 
start, and should I be confirmed, of the opportunities to work 
with other Federal agencies, the CDC, the Centers for Medicare 
and Medicaid.
    I reflect back on state experience in dealing with smoking, 
as an example, and some of the most effective anti- smoking 
efforts we took were not those isolated in the public health 
sections of state agencies, but those that cut across to 
Medicaid to the Child Welfare Agencies, to the TANF programs.
    So I am very anxious to look at what the history has been 
so far of our mutual efforts, mutual aid efforts with other 
enforcers on the Federal side and partners in the state and 
local agencies to try to deal with this. I know it is--in part 
it is a cultural thing. We have evolved to this over the past 
30 or 40 years and it is going to take efforts on a number of 
fronts.
    To your question about schools, I know at the state level 
we often encounter the issues of schools frequently raising 
funds through their soda machines and other avenues in the 
school for extracurricular activities. We got considerable 
pushback to our efforts to try to again have a more coherent 
policy of nutritious food. So I am very anxious and would be 
happy to work with the Committee on that.
    Chairman Harkin. Thank you very much, Mr. Concannon. We 
look forward to working with you on that also. There are some 
bumps in the road, but I think they can be overcome; I really 
do.
    Mr. Adelstein, again let me thank you for all your work in 
the 2002 Farm Bill. You mentioned that in your statement, in 
getting the broadband provisions in there. It did not quite 
work out exactly like we thought they were going to work out 
and there were some problems there, but as you know, we just 
put, what was it, 2 billion, 2 billion, right, in the stimulus? 
Two billion in the stimulus for----
    Mr. Adelstein. 2.5.
    Chairman Harkin. I stand corrected, 2.5 billion in there 
for broadband. So now we want to do it again, but we want to do 
it right and we want to get that money out there.
    I do not think we are ever going to see that kind of money 
again ever for getting broadband technology out to our smaller 
communities and it is so important. We talk a lot--you know, 
this Committee is viewed upon a lot of times just as we are 
farmer oriented, but we have to be looking at the 
infrastructure also.
    So many of our small communities that our farmers rely on 
are drying up, and when they do not have businesses that they 
can deal with or even schools to go to, where kids are going an 
hour in the morning, an hour at night just on a bus to school, 
they leave when it is dark, they come home when the sun is 
setting in the wintertime--a lot of times even our churches are 
closing up. They have to go an hour away just to get to a 
church on Sunday.
    So the infrastructure is kind of crumbling. I am reminded 
of a small business in a small town in Iowa that was growing. 
It was an insurance business and had they had broadband, they 
would have been--they had a new product they were--had they had 
broadband, they would have been able to expand their business 
in that town. They didn't, so they moved to Des Moines.
    Well good news is it is still in Iowa. Bad news is it is 
not out in that small town where they could have added 25 
people to the work rolls because they didn't have broadband.
    So that is just all preface, just saying that we really 
have to work hard to get this money out in the way that it is 
intended, to get to the small communities. And a lot of times a 
lot of these small communities, when they put in their 
applications, they may not have skilled grant writers that the 
bigger communities have and they may make mistakes on their 
applications and a lot of times they get shunted aside.
    I hope you will commit yourself to making sure that your 
staff works with these really small communities to help them. 
If they make mistakes, get back and work with them and get it 
worked out so they have an adequate chance of getting this 
funding also.
    So that is just my way of first thanking you for your past 
work on it, but sort of throwing the challenge to you now. You 
know the background. You know what needs to be done, but making 
sure that we get that broadband out there to these small 
communities that really need it.
    Mr. Adelstein. Well thank you, Mr. Chairman. Thank you for 
giving us the opportunity to do that. This is an unprecedented 
level of resources and that means an unprecedented level of 
responsibility to get it right.
    At the same time we need to get it right, we have to get it 
out fast in order to stimulate the economy. We saw the job 
numbers this week and we cannot afford to wait. And yet, we 
cannot afford to waste a dime of taxpayer money, so it is going 
to be an incredible challenge for the RUS.
    Customer service is key. I think we need to be as 
responsive as we can to these small communities. You should not 
have to hire a grant writer or hire a consultant to be able to 
get money for a small rural town, to somebody who is gathering 
together. We will work with state governments. We will work 
with non-profits. We will work with anybody and try to find the 
best projects that are--you know, really get broadband where 
they need to be.
    Senator Chambliss laid out a great example of that pilot 
project in Georgia. There are so many examples. You can go on 
and on about it. I have seen them in my years on the FCC, of 
how broadband can transform opportunities in rural areas, 
economic opportunities, cultural opportunities, educational, 
healthcare, the list goes on and on. And if we do not get this 
right, you said, we may never get this amount of resources 
again. We may not get any more resources from Congress if we 
cannot prove to you that we were able to use that money wisely.
    I commit to you to do everything in my power to make sure 
we use it wisely, effectively and get broadband out to every 
part of the country that needs it, that we can afford to with 
the amount of resources you provided.
    Chairman Harkin. I appreciate that very much. 
Congratulations again to all of you. Thank you very much and I 
will turn to Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman. Mr. Adelstein, 
continuing with that line of the 2.5 billion in the stimulus 
package for broadband, the I.G. issued a report back in March 
of this year in which he stated that the overwhelming majority 
of communities, in fact 77 percent, receiving service through a 
broadband program already have access to technology without the 
RUS program and when I talked in my opening comments about the 
fact that we really do need to get this money in unserved 
areas, that is an example of why.
    I know you are aware of that, but it really is important 
that we spend the money No. 1, and that has been one of our 
issues; we have not been spending all of the money that is 
there. But now we have some new opportunities. But we do need 
to make sure that folks in rural Iowa, as well as rural Georgia 
and rural Texas, are getting access to broadband.
    I urge you to address this early and to really figure out 
innovative and creative ways that we can make sure it gets to 
those people that you talk about that do not have the resources 
to come in with a huge grant writing capability.
    I want to talk for just a second about nuclear energy. I 
realize that once confirmed you are going to report to 
Secretary Vilsack, but I recently saw where the Department of 
Energy Secretary Steven Chu said that nuclear energy, and I 
quote, ``has to be a part of the mix.'' And he described it as 
a clean base load energy resource.
    Georgia, my electric co-ops, as well as the municipal 
systems and Georgia Power, have teamed up to build two new 
nuclear plants adjacent to Plant Vogtle, which they already 
own. It is a nuclear power-producing facility. Since nuclear 
power is a non-carbon emitting source of power, it would seem 
to me that this project would be a perfect candidate for RUS 
base load financing and since you will directly oversee the 
rural electric programs, can I get a commitment from you to 
ensure that you will work to reestablish base load financing 
for nuclear power at RUS?
    Mr. Adelstein. Senator Chambliss, there are, as you know, 
impediments to financing base load generation currently with 
OMB and also there was an attempt in the Farm Bill to open up 
the possibility of having fees assessed that could help to 
finance those. But I will commit to you that I would be willing 
to raise this issue with the Administration to see what can be 
done.
    Senator Chambliss. I do think that long term this issue of 
carbon emissions is going to be with us and there is just no 
question but that nuclear power is one of the solutions to that 
problem. So I hope you will give it due emphasis and we will 
look forward to working with you on that.
    One other quick issue. When the stimulus funding for the 
B&I Loan Guarantee Program was authorized, it has kind of been 
sitting there. Do you have any idea in your discussions leading 
up to this confirmation hearing as to when there is going to be 
an announcement on the disbursement of those funds?
    Mr. Adelstein. This is the water funds?
    Senator Chambliss. They would be included in there? Yeah, 
the Business & Industry Loan Guarantee Program, that I do not 
think would include the water funds.
    Mr. Adelstein. Right, the Business & Industry Loan, I am 
not familiar with that. Under Secretary Tonsager, who was 
recently confirmed, has been working on that. RUS does not have 
authority over that program, so I am not familiar with the 
disposition of the stimulus funds. I would be happy to look 
into that and get back to you forthwith on what the status and 
timing is on disbursing those funds.
    Senator Chambliss. Again, in this current state of 
financial uncertainties, that particular program is critical to 
folks not just in Georgia, but in all parts of rural America, 
so any emphasis you can give to that I would appreciate it.
    Mr. Concannon, your mission area is leading development of 
the 2010 dietary guidelines in conjunction with U.S. Department 
of Health and Human Services. The dietary guidelines are 
updated every 5 years at considerable expense and time of 
Federal employees. The purpose behind the frequent update is to 
ensure that Federal nutrition policy is based on the most 
accurate science instead of diet fads or other factors.
    The dietary guidelines are a key component to all Federal 
nutrition assistance and education programs and they focus on 
an overall diet and nutritional intake instead of 
characterizing foods as either good or bad. I mention this 
because there are various efforts to steer the Federal 
Government to implement nutrition guidance from outside 
sources, whether they are attempts to limit what foods can be 
purchased with SNAP benefits or foods sold in schools.
    While there is strong bipartisan support to improve the 
diet and exercise habits of all Americans, and especially those 
that participate in USDA assistance programs, I believe that an 
incentive-based approach is more effective than a punitive 
approach of penalties and strict Federal mandates and I would 
appreciate your thoughts on this subject and your assurance 
that you will honor the dietary guidelines for Americans as the 
official Federal nutritional policy.
    Mr. Concannon. Senator, I am new to some of the aspects of 
the questions obviously that you have raised, but I am of the 
understanding that in the farm bill that was passed several 
years ago, there were incentives, pilot program incentives to 
encourage people to in the, I believe it was in the WIC 
program, to make better use of more nutritious foods, fruits 
and vegetables, and it is my understanding that later this 
year, between some elements within the USDA and some of these 
pilot programs, will be reviewed for the effectiveness of some 
of those incentives.
    The point you raised, Senator, broadly in your statement, 
that there are broad concerns about nutrition in the country, 
as it has been previously noted--and I think we need to both 
honor those dietary guidelines, but also work with other parts 
of the public and private sector to encourage both moderation 
and better nutritional habits for Americans.
    Senator Chambliss. We do spend a lot of time and a lot of 
money on the preparation of those dietary guidelines and 
studies show that few people actually follow them. In fact, I 
think only about 3 percent of adults, according to the most 
recent study, really pay much attention to those 
recommendations.
    So I hope that you will give strong consideration to 
educational programs about communicating to all Americans what 
is contained in those dietary guidelines and make sure that we 
are able to get the best bang for that buck that we are 
spending with respect to the publication of those guidelines.
    Mr. Concannon. Yes, sir.
    Senator Chambliss. Mr. Segal, I think the chairman has 
covered the basic points that I wanted to cover with you, with 
one small exception and that is, let me just say first, this 
issue of updating the Enterprise Financial Systems at USDA has 
been an ongoing project.
    One of our complications has frankly been the lack of 
funding to adequately do the job. It is not going to be cheap. 
I hope that what you may do initially is to look at developing 
a plan. Trying to do all of this at one time may be impossible, 
may be impractical. I am not sure we could put a brand new 
computer in every FSA employee's hands within a 12-month 
period, so it may take us a couple of years.
    But if you can develop a reasonable plan, let me just 
assure you that there will be bipartisan support on the Hill to 
see about the implementation of that plan. One aspect of that 
plan needs to be consideration of how we keep information 
relative to producers private. That is always a difficult issue 
to deal with, whether you are in the private sector or whether 
you are dealing with government programs.
    So as you look at developing a system that will provide 
better service to our producers around the country, I hope you 
will think again of some innovative and creative ways and use 
your background to help us come up with a program that ensures 
the privacy on the part of those producers and that will in and 
of itself allow us to provide greater assistance and make sure 
that the people who are entitled to payments under the programs 
are the ones that are actually getting those payments as 
opposed to frankly some of the abuses that have taken place in 
the system.
    So again, to all three of you, I would just say 
congratulations, No. 1, on your nomination. You are all 
eminently qualified to carry out the challenges that have been 
presented to you and we look forward to a swift confirmation 
and look forward to working individually with each one of you 
in your respective areas.
    Thank you, Mr. Chairman.
    Chairman Harkin. I would like again ask for any--for the 
senators who could not be here this morning due to other 
commitments who would like to ask for any written questions to 
the nominees, to be submitted to the clerk of this committee by 
6 p.m. this afternoon, by 6 p.m. today. So the staffs who are 
here, if there are any written questions, have them in by 6 
today.
    We would like to get the nominees hopefully up sometime 
this week if we can and on the floor of the Senate. So I 
would--again, do any of you have anything else you would like 
to bring up to the Committee at all for the record or anything 
like that? Going once, going twice.
    Again, congratulations to each one of you. We will try to 
expedite this process. Look forward to working with you. Thank 
you all very much.
    The Committee will stand adjourned.
    [Whereupon, at 11:19 a.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                              July 7, 2009



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 54571.001

[GRAPHIC] [TIFF OMITTED] 54571.002

[GRAPHIC] [TIFF OMITTED] 54571.003

[GRAPHIC] [TIFF OMITTED] 54571.004

[GRAPHIC] [TIFF OMITTED] 54571.005

[GRAPHIC] [TIFF OMITTED] 54571.006

[GRAPHIC] [TIFF OMITTED] 54571.007

[GRAPHIC] [TIFF OMITTED] 54571.008

[GRAPHIC] [TIFF OMITTED] 54571.009

[GRAPHIC] [TIFF OMITTED] 54571.010

[GRAPHIC] [TIFF OMITTED] 54571.011

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              July 7, 2009



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 54571.012

[GRAPHIC] [TIFF OMITTED] 54571.013

[GRAPHIC] [TIFF OMITTED] 54571.014

[GRAPHIC] [TIFF OMITTED] 54571.015

[GRAPHIC] [TIFF OMITTED] 54571.016

[GRAPHIC] [TIFF OMITTED] 54571.017

[GRAPHIC] [TIFF OMITTED] 54571.018

[GRAPHIC] [TIFF OMITTED] 54571.019

[GRAPHIC] [TIFF OMITTED] 54571.020

[GRAPHIC] [TIFF OMITTED] 54571.021

[GRAPHIC] [TIFF OMITTED] 54571.022

[GRAPHIC] [TIFF OMITTED] 54571.023

[GRAPHIC] [TIFF OMITTED] 54571.024

[GRAPHIC] [TIFF OMITTED] 54571.025

[GRAPHIC] [TIFF OMITTED] 54571.026

[GRAPHIC] [TIFF OMITTED] 54571.027

[GRAPHIC] [TIFF OMITTED] 54571.028

[GRAPHIC] [TIFF OMITTED] 54571.029

[GRAPHIC] [TIFF OMITTED] 54571.030

[GRAPHIC] [TIFF OMITTED] 54571.031

[GRAPHIC] [TIFF OMITTED] 54571.032

[GRAPHIC] [TIFF OMITTED] 54571.033

[GRAPHIC] [TIFF OMITTED] 54571.034

[GRAPHIC] [TIFF OMITTED] 54571.035

[GRAPHIC] [TIFF OMITTED] 54571.036

[GRAPHIC] [TIFF OMITTED] 54571.037

[GRAPHIC] [TIFF OMITTED] 54571.038

[GRAPHIC] [TIFF OMITTED] 54571.039

[GRAPHIC] [TIFF OMITTED] 54571.040

[GRAPHIC] [TIFF OMITTED] 54571.041

[GRAPHIC] [TIFF OMITTED] 54571.042

[GRAPHIC] [TIFF OMITTED] 54571.043

[GRAPHIC] [TIFF OMITTED] 54571.044

[GRAPHIC] [TIFF OMITTED] 54571.045

[GRAPHIC] [TIFF OMITTED] 54571.046

[GRAPHIC] [TIFF OMITTED] 54571.047

[GRAPHIC] [TIFF OMITTED] 54571.048

[GRAPHIC] [TIFF OMITTED] 54571.049

[GRAPHIC] [TIFF OMITTED] 54571.050

[GRAPHIC] [TIFF OMITTED] 54571.051

[GRAPHIC] [TIFF OMITTED] 54571.052

[GRAPHIC] [TIFF OMITTED] 54571.053

[GRAPHIC] [TIFF OMITTED] 54571.054

[GRAPHIC] [TIFF OMITTED] 54571.055

[GRAPHIC] [TIFF OMITTED] 54571.056

[GRAPHIC] [TIFF OMITTED] 54571.057

[GRAPHIC] [TIFF OMITTED] 54571.058

[GRAPHIC] [TIFF OMITTED] 54571.059

[GRAPHIC] [TIFF OMITTED] 54571.060

[GRAPHIC] [TIFF OMITTED] 54571.061

[GRAPHIC] [TIFF OMITTED] 54571.062

[GRAPHIC] [TIFF OMITTED] 54571.063

[GRAPHIC] [TIFF OMITTED] 54571.064

[GRAPHIC] [TIFF OMITTED] 54571.065

[GRAPHIC] [TIFF OMITTED] 54571.066

[GRAPHIC] [TIFF OMITTED] 54571.067

[GRAPHIC] [TIFF OMITTED] 54571.068

[GRAPHIC] [TIFF OMITTED] 54571.069

[GRAPHIC] [TIFF OMITTED] 54571.070

[GRAPHIC] [TIFF OMITTED] 54571.071

[GRAPHIC] [TIFF OMITTED] 54571.072

[GRAPHIC] [TIFF OMITTED] 54571.073

[GRAPHIC] [TIFF OMITTED] 54571.074

[GRAPHIC] [TIFF OMITTED] 54571.075

[GRAPHIC] [TIFF OMITTED] 54571.076

[GRAPHIC] [TIFF OMITTED] 54571.077

[GRAPHIC] [TIFF OMITTED] 54571.078

[GRAPHIC] [TIFF OMITTED] 54571.079

[GRAPHIC] [TIFF OMITTED] 54571.080

[GRAPHIC] [TIFF OMITTED] 54571.081

[GRAPHIC] [TIFF OMITTED] 54571.082

[GRAPHIC] [TIFF OMITTED] 54571.083

[GRAPHIC] [TIFF OMITTED] 54571.084

[GRAPHIC] [TIFF OMITTED] 54571.085

[GRAPHIC] [TIFF OMITTED] 54571.086

[GRAPHIC] [TIFF OMITTED] 54571.087

[GRAPHIC] [TIFF OMITTED] 54571.088

[GRAPHIC] [TIFF OMITTED] 54571.089

[GRAPHIC] [TIFF OMITTED] 54571.090

[GRAPHIC] [TIFF OMITTED] 54571.091

[GRAPHIC] [TIFF OMITTED] 54571.092

[GRAPHIC] [TIFF OMITTED] 54571.093

[GRAPHIC] [TIFF OMITTED] 54571.094

[GRAPHIC] [TIFF OMITTED] 54571.095

[GRAPHIC] [TIFF OMITTED] 54571.096

[GRAPHIC] [TIFF OMITTED] 54571.097

[GRAPHIC] [TIFF OMITTED] 54571.098

[GRAPHIC] [TIFF OMITTED] 54571.099

[GRAPHIC] [TIFF OMITTED] 54571.100


</pre></body></html>
